                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250




July 11, 2008

REPLY TO
ATTN OF: 50501-9-FM



“OIG Audit Report: Management and Security over USDA Wireless Connections”

This report evaluates security controls in place over the use of wireless technology connected to
the U.S. Department of Agriculture networks. Specifically, OIG reviewed the controls that the
Office of the Chief Information Officer (OCIO) and selected agencies had over wireless devices.
We determined that there had been limited planning, coordination, and/or oversight of agency
wireless networks. As a result, OCIO could not ensure that wireless security management
processes were integrated with agency strategic and operational planning processes, that wireless
communications employed a streamlined configuration management, and/or that wireless
technologies had been implemented with the appropriate security measures such as intrusion
detection and anti-virus services.

During the review period, OIG stressed the importance of compliance in these areas with OCIO
and the selected agencies. We also noted that OCIO had a new Chief Information Officer during
2007 and several memos were issued clarifying the roles of OCIO and agencies in wireless
security. These actions have helped to strengthen controls over wireless security. However,
until they are implemented Departmentwide, a material weakness will continue to exist. We
recommended that OCIO implement effective policies and procedures over wireless access
points, monitoring, physical security, and incident handling, and assume its role regarding
oversight and coordination of the USDA agencies. The agencies need to comply with applicable
Federal and Departmental guidance and perform periodic scanning as required. OCIO concurred
with OIG’s recommendations and has proposed additional corrective actions.

This report is not being publicly released due to the sensitive security information it contains.
